No. 19-71
IN THE SUPREME COURT OF THE UNITED STATES
________________
FNU TANZIN, ET AL., PETITIONERS
v.
MUHAMMAD TANVIR, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS via email and first-class mail, postage prepaid, this 6TH
day of January, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,805 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 6, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 6, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0071
TANZIN, FNU, ET AL.
MUHAMMAD TANVIR, ET AL.

JENNIFER R. COWAN
DEBEVOISE & PLIMPTON, LLP
919 THIRD AVENUE
NEW YORK, NY 10022
212-909-7445
JRCOWAN@DEBEVOISE.COM
SHAYANA D. KADIDAL
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY,
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG
RAMZI KASSAM
MAIN STREET LEGAL SERVICES, INC.
CITY UNIVERSITY OF NEW YORK SCHOOL
OF LAW
2 COURT SQUARE
LONG ISLAND, NY 11101
718-340-4558
RAMZI.KASSAM@LAW.CUNY.EDU

